TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                 Target Dates Have Not Been Established to
                    Eliminate or Reduce Taxpayer Social
                      Security Numbers From Outgoing
                              Correspondence



                                         August 13, 2010

                              Reference Number: 2010-40-098




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                   HIGHLIGHTS


TARGET DATES HAVE NOT BEEN                            (SSN ER) Plan. A majority of a sample of
ESTABLISHED TO ELIMINATE OR                           SSN ER Plan accomplishments could be
REDUCE TAXPAYER SOCIAL SECURITY                       validated. However, most of the supporting
NUMBERS FROM OUTGOING                                 documentation had to be reassembled, and
                                                      it was not clear if the IRS had validated the
CORRESPONDENCE
                                                      accomplishments before reporting them.
                                                      Milestones for Phase 3 of the SSN ER Plan
Highlights                                            have not been established.
                                                      The IRS will not be eliminating or reducing
Final Report issued on August 13, 2010                the use of taxpayers’ Social Security
                                                      Numbers in the immediate future. The IRS
Highlights of Reference Number: 2010-40-098           has many systems, notices, and forms that
to the Internal Revenue Service Deputy                use Social Security Numbers which require
Commissioner for Operations Support.                  significant analysis before Social Security
                                                      Number use is eliminated or reduced. The
IMPACT ON TAXPAYERS                                   IRS focused first on internal forms using
More than 130 million taxpayers entrust the           Social Security Numbers and eliminating
Internal Revenue Service (IRS) with sensitive         employees’ Social Security Numbers from its
financial and personal data, much of it on paper      systems.
documents requiring protection. Taxpayers             WHAT TIGTA RECOMMENDED
need to be assured that the IRS is taking every
precaution to protect their private information       TIGTA recommended that the Deputy
from inadvertent disclosure.                          Commissioner for Operations Support maintain
                                                      documentation to support major deliverables
WHY TIGTA DID THE AUDIT                               and key meetings so that it is readily available
This audit was initiated because the Social           for examination. The Deputy Commissioner
Security Number is now a vital piece of               should also validate data received from the
information needed to function in American            business units and all accomplishments to
society to pay taxes, obtain a driver’s license, or   ensure all needed actions are complete, and
open a bank account, among other things.              refine and update the milestones for the
Identity theft affects tax administration when an     SSN ER Plan to ensure timely progress of the
individual intentionally uses the Social Security     strategy.
Number of another person to file a false tax          The IRS agreed with the recommendations.
return or fraudulently obtain employment.             It created a dedicated SSN ER shared folder
Another person’s Social Security Number is the        to maintain documentation related to major
most valuable tool an identity thief can obtain to    SSN ER Program deliverables and key
commit financial fraud, and the Social Security       meetings and will ensure specific report and
Number becomes even more valuable if it is            source materials are readily available for
linked to other personal data of the Social           examination. The SSN ER Program team
Security Number owner, such as information            has also identified a team member as the
required to prepare a tax return. TIGTA               Records Historian. The IRS will implement a
conducted this audit to determine whether the         data validation process for all SSN ER Plan
IRS is efficiently eliminating the unnecessary        accomplishments to ensure all required
collection and use of taxpayer Social Security        actions are completed. Finally, the IRS will
Numbers.                                              strengthen Program milestones by refining
                                                      and updating milestones quarterly to ensure
WHAT TIGTA FOUND
                                                      timely progress of Program strategies.
In response to Office of Management and
Budget Memorandum 07-16, the IRS
developed and is implementing its Social
Security Number Elimination and Reduction
                                           DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                           August 13, 2010


 MEMORANDUM FOR DEPUTY COMMISSIONER FOR OPERATIONS SUPPORT

 FROM:                       Michael R. Phillips
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Target Dates Have Not Been Established to
                             Eliminate or Reduce Taxpayer Social Security Numbers From
                             Outgoing Correspondence (Audit # 200940040)

 This report presents the results of our review to determine whether the Internal Revenue Service
 is efficiently eliminating the unnecessary collection and use of taxpayer Social Security
 Numbers. This audit was included in our Fiscal Year 2010 Annual Audit Plan and addresses the
 major management challenge of Taxpayer Protection and Rights.
 Management’s complete response to the draft report is included as Appendix IV.
 Copies of this report are also being sent to the Internal Revenue Service managers affected by the
 report recommendations. Please contact me at (202) 622-6510 if you have questions or Michael
 E. McKenney, Assistant Inspector General for Audit (Returns Processing and Account Services),
 at (202) 622-5916.
                     Target Dates Have Not Been Established to Eliminate or Reduce
                            Taxpayer Social Security Numbers From Outgoing
                                            Correspondence




                                             Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 4
          The Internal Revenue Service Has Implemented the Social
          Security Number Elimination and Reduction Plan.......................................Page 4
          The Internal Revenue Service Will Not Be Eliminating or
          Reducing the Use of Taxpayers’ Social Security Numbers
          in the Immediate Future ................................................................................Page 5
                    Recommendation 1:..........................................................Page 8

                    Recommendations 2 and 3: ......................................................... Page 9


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 10
          Appendix II – Major Contributors to This Report ........................................Page 12
          Appendix III – Report Distribution List .......................................................Page 13
          Appendix IV – Management’s Response to the Draft Report ......................Page 15
         Target Dates Have Not Been Established to Eliminate or Reduce
                Taxpayer Social Security Numbers From Outgoing
                                Correspondence




                         Abbreviations

IRS                Internal Revenue Service
OMB                Office of Management and Budget
SSN ER             Social Security Number Elimination and Reduction
                  Target Dates Have Not Been Established to Eliminate or Reduce
                         Taxpayer Social Security Numbers From Outgoing
                                         Correspondence




                                           Background

In February 2010, the Federal Trade Commission reported that identity theft was the number one
consumer complaint category in Calendar Year 2009. 1 Identity theft occurs when someone uses
Personally Identifiable Information, such as an individual’s name, Social Security Number,
credit card numbers, or other account information, to commit fraud and other crimes. The
Internal Revenue Service (IRS) Office of Privacy, Information Protection, and Data Security
defines Personally Identifiable Information as any combination of information that can be used
to uniquely identify, contact, or locate a person and could subsequently be used for identity theft.
More than 130 million taxpayers entrust the IRS with sensitive financial and personal data, much
of it on paper documents requiring
protection. For Calendar Year 2010, 2
the IRS mailed more than 42 million
notices and letters to individual
taxpayers for various reasons,
including:
•   More than 20.1 million balance
    due notices. Taxpayers with
    outstanding tax liabilities receive
    balance due notices informing
    them of their outstanding tax
    liabilities. Shown at right is a
    portion of a notice that the IRS
    mailed to a taxpayer.
•   More than 2 million letters issued
    by the Automated Collection
    System. 3 For example, these are letters mailed to taxpayers advising them that a levy is
    being placed on their property or to confirm a taxpayer’s payment agreement to satisfy an
    outstanding tax liability.
•   More than 9.7 million correspondence letters. Correspondence letters can request
    information from taxpayers or advise them of possible adjustments to their tax returns.


1
  Consumer Sentinel Network Data Book for January–December 2009, Federal Trade Commission, February 2010.
2
  Volumes are as of May 26, 2010.
3
  A telephone contact system through which telephone assistors collect unpaid taxes and secure tax returns from
delinquent taxpayers who have not complied with previous notices.
                                                                                                        Page 1
                  Target Dates Have Not Been Established to Eliminate or Reduce
                         Taxpayer Social Security Numbers From Outgoing
                                         Correspondence



Most of these notices and letters include taxpayers’ Social Security Numbers because they
require the taxpayer to respond to the IRS. Taxpayers need to be assured that the IRS is taking
every precaution to protect their private information from inadvertent disclosure.
Although the Social Security Number was created as a means to track workers’ earnings and
eligibility for Social Security benefits, it is now a vital piece of information needed to function in
American society. Because of its unique nature and broad applicability, the Social Security
Number has become the identifier of choice for public and private sector entities, and it is used
for numerous non-Social Security purposes. Today, United States citizens generally need a
Social Security Number to pay taxes, obtain a driver’s license, or open a bank account, among
other things. Identity theft affects tax administration when an individual intentionally uses the
Social Security Number of another person to file a false tax return or fraudulently obtain
employment. Another person’s Social Security Number is the most valuable tool an identity
thief can obtain to commit financial fraud, and the Social Security Number becomes even more
valuable if it is linked to other personal data of the Social Security Number owner, such as
information required to prepare a tax return.
Legislative Requirements
Two primary laws, the Privacy Act of 1974 4 and the E-Government Act of 2002, 5 give Federal
agencies responsibilities for protecting Personally Identifiable Information, including ensuring its
security. In addition, the Federal Information Security Management Act of 2002 6 requires
                        agencies to develop, document, and implement agency-wide programs to
                        provide security for their information and information systems (which
                        include Personally Identifiable Information and the systems on which it
                        resides).
                       The Office of Management and Budget (OMB) has also issued numerous
                       memoranda to Federal agencies. On May 22, 2007, the OMB issued
Memorandum 07-16 (M-07-16), “Safeguarding Against and Responding to the Breach of
Personally Identifiable Information,” to the heads of executive departments and agencies
requiring that:
        Within 120 days from the date of this memo, agencies must establish a plan in which the
        agency will eliminate the unnecessary collection and use of social security numbers
        within eighteen months.
The memorandum requires agencies to review and reduce the volume of Personally Identifiable
Information to the minimum necessary and reduce the use of Social Security Numbers. The


4
  5 U.S.C. Section (§) 552a (2006).
5
  Pub. L. 107-347, 116 Stat. 2899, 44 U.S.C. § 101.
6
  44 U.S.C. §§ 3541 - 3549.
                                                                                               Page 2
                Target Dates Have Not Been Established to Eliminate or Reduce
                       Taxpayer Social Security Numbers From Outgoing
                                       Correspondence



memorandum emphasizes the need for proper privacy and security safeguards to protect
Personally Identifiable Information in both electronic and paper-based formats.
This review was performed at the IRS National Headquarters in Washington, D.C., in the Office
of Privacy, Information Protection, and Data Security and the Office of Privacy in
Philadelphia, Pennsylvania, during the period June 2009 through May 2010. We also conducted
interviews in the Wage and Investment Division Office of Taxpayer Correspondence in
Lanham, Maryland, and Austin, Texas. We conducted this performance audit in accordance with
generally accepted government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objective. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit objective.
Detailed information on our audit objective, scope, and methodology is presented in Appendix I.
Major contributors to the report are listed in Appendix II.




                                                                                           Page 3
               Target Dates Have Not Been Established to Eliminate or Reduce
                      Taxpayer Social Security Numbers From Outgoing
                                      Correspondence




                                Results of Review

The Internal Revenue Service Has Implemented the Social Security
Number Elimination and Reduction Plan
In response to OMB M-07-16, the IRS developed and is implementing its Social Security
Number Elimination and Reduction (SSN ER) Plan. The Plan outlines the IRS’ implementation
methodology, transition to new business practices, and the future state of the SSN ER Program.
The IRS submitted the first release of its SSN ER Plan to the Department of the Treasury in
November 2007. To date, the IRS has provided three releases of its Plan to reduce or eliminate
the use of Social Security Numbers to the Department of the Treasury for incorporation into the
Department’s overall plan. The final release was submitted in February 2009.
The SSN ER Plan is broken down into three phases. The IRS is in Phase 2.
   •   Phase 1: Data Gathering and Inventory.
   •   Phase 2: Review Analysis and Identification of Solutions.
   •   Phase 3: Implementation and Compliance Management.
The SSN ER Plan methodology includes identifying opportunities to eliminate or reduce Social
Security Number use, reducing IRS reliance on the Social Security Number, and replacing Social
Security Numbers as identifiers. The transition to new business practices includes introducing
new policies and procedures enterprise-wide to institutionalize the need to continuously
reconsider Social Security Number use. These practices will be communicated internally to IRS
employees as well as externally to taxpayers, agency
partners, and stakeholders.
                                                             The IRS’ key message is to
The future state of the SSN ER Program involves             improve taxpayer service and
moving into compliance management. This includes             reduce taxpayer burden by
implementing the SSN ER Plan, business unit progress         minimizing the use of Social
tracking and reporting, monitoring adherence with              Security Numbers and
internal policies and Federal Social Security Number           increasing information
                                                             safeguards and awareness
requirements, and internal and external communication          regarding agency use.
and awareness.
The IRS has also been an active participant in several work groups with the Department of the
Treasury and other Federal agencies exploring ways to minimize or eliminate Social Security
Number use.

                                                                                            Page 4
                  Target Dates Have Not Been Established to Eliminate or Reduce
                         Taxpayer Social Security Numbers From Outgoing
                                         Correspondence



The Internal Revenue Service Will Not Be Eliminating or Reducing the
Use of Taxpayers’ Social Security Numbers in the Immediate Future
During Fiscal Year 2009, the IRS mailed 201 million notices (including letters) to taxpayers —
most of which contained taxpayer Social Security Numbers. The IRS has many systems, notices,
and forms that use taxpayer Social
Security Numbers—all requiring
significant analysis to determine if
taxpayer Social Security Numbers are
necessary or can be eliminated. The
following have been identified that may
contain taxpayer Social Security
Numbers.
•   More than 500 different computer
    systems.
•   More than 6,000 types of internal
    and external forms.
•   20 categories of individual taxpayer notices (e.g., Adjustments, Balance Due, and Math
    Error), 155 notice types (e.g., Examination Adjustment Notice; Balance Due $5 or More, No
    Math Error; and Math Error, Overpayment of $1 or More). The IRS stated it has more than
    800 letters and correspondence.
Since the IRS submitted its first release of the SSN ER Plan to the Department of the Treasury in
the first quarter of Fiscal Year 2008, it has redacted or truncated taxpayers’ Social Security
Numbers from only a small number of systems, notices, and forms.
•   Transmittal Document (Form 3210) used when transferring taxpayer files between IRS
    functions and offices. The IRS now lists the last four digits of the taxpayer’s Social Security
    Number on the Form.
•   Notices and letters associated with the economic stimulus payment 7 and Identity Theft
    Program. 8 The IRS developed the new notices and letters so that they would not require the
    taxpayer’s full Social Security Number.




7
  The IRS mailed approximately 123 million economic stimulus payment notices to taxpayers between April and
December 2008.
8
  The IRS mailed about 20,700 Identity Theft Program notices and letters to taxpayers between October 2007 and
January 2009.
                                                                                                         Page 5
                  Target Dates Have Not Been Established to Eliminate or Reduce
                         Taxpayer Social Security Numbers From Outgoing
                                         Correspondence



•   Integrated Data Retrieval System 9 command code used to verify taxpayer identities. This
    command code uses only the last 4 digits of the primary or secondary taxpayer’s Social
    Security Number, the first 10 characters of the last name (or less, if there are less than
    10 characters in the last name), and the date of birth without the year to search for the
    matching name(s) and address(es). The taxpayer needs to provide only the last four digits of
    his or her Social Security Number.
    Since the command code was made available to IRS employees, about 50,600 requests were
    made from October 27, 2009, through March 31, 2010. About 35,800 of the command code
    requests (71 percent) were successful.
In addition, the IRS issued Internal Revenue Bulletin 2009-51 that outlines a pilot program to
truncate the Social Security Number on the printed copies of the U.S. Information Return series
(Form 1099) and Mortgage Interest Statement (Form 1098).

The IRS focused first on internal forms and employee Social Security Numbers
The IRS stated that it focused first on internal forms using Social Security Numbers because it
has more latitude to change the presentation of the data on the form if it does not leave the IRS.
If it leaves the IRS, consideration must be given to the effect any changes will make on the
receiving organization. The IRS has also focused on eliminating employee’s Social Security
Numbers from its systems.
Systems and taxpayer correspondence containing taxpayer Social Security Numbers present
complications because processes must also be analyzed and revised before reducing or
eliminating taxpayer Social Security Numbers. This is because Social Security Numbers are
used to associate correspondence and documents with taxpayer accounts.
In addition, before revising forms and notices, the IRS must first analyze the various options for
eliminating or reducing the Social Security Numbers (e.g., eliminating or masking the Social
Security Number, or using barcodes). The IRS began the lengthy process of analyzing the
programming costs for the various systems in February 2009. Initial results of the analysis were
provided in November 2009.

Controls need to be improved to ensure the IRS takes all necessary actions to
reduce or eliminate the unnecessary use of Social Security Numbers
As the IRS moves forward to reduce and eliminate the use of taxpayer Social Security Numbers,
it needs to improve internal controls to ensure all planned actions are appropriately and timely
accomplished. The IRS needs to maintain a complete list of systems, notices, and forms with


9
  IRS computer system capable of retrieving or updating stored information. It works in conjunction with a
taxpayer’s account records.
                                                                                                             Page 6
                Target Dates Have Not Been Established to Eliminate or Reduce
                       Taxpayer Social Security Numbers From Outgoing
                                       Correspondence



associated actions for monitoring purposes. It also needs to ensure milestones are established
and updated when necessary.
The majority of the accomplishments in the SSN ER Plan could be validated but
documentation needs to be improved
Release 3 of the SSN ER Plan includes 35 statements purporting Plan accomplishments. The
IRS was able to support the majority of the nine Plan accomplishments tested. However, most of
the supporting documents had to be reassembled.
In addition, it was unclear if the IRS had validated the accomplishments before reporting them.
For example, the Plan stated that the IRS had implemented the use of a Standard Employee
Identifier in lieu of the Social Security Number for one of the IRS’ major application systems.
IRS officials also advised us that the option to sign into the system with a Social Security
Number was to be removed by February 2010. Nevertheless, as of April 15, 2010, employees
still had the ability to sign into the system using either a Social Security Number or a Standard
Employee Identification Number.
Because documentation was not adequately maintained, there was no support to corroborate the
Plan’s accomplishments. Without validation, there
is no assurance that all systems and forms using
taxpayers’ Social Security Numbers are identified          Documentation was not
and reduced or eliminated. The inability to           adequately maintained to support
document or explain the steps taken to validate the         and corroborate Plan
                                                             accomplishments.
accomplishments makes it difficult for the IRS to
demonstrate why it may not be feasible to remove or
reduce Social Security Numbers from systems and
outgoing correspondence.
The SSN ER Program currently consists of only four employees. The SSN ER Program has
experienced management and employee turnover during the development and implementation of
the SSN ER Plan. Managers have been detailed to other assignments or taken other positions
within the IRS. One analyst who reviewed data was a part-time employee. Finally, the current
Program manager stated that the SSN ER Program does not have the level of resources needed to
dedicate one person to validate data and accomplishments (i.e., ensure taxpayer Social Security
Numbers have been eliminated or masked, or ensure support for not removing them has been
evaluated and approved).
The Office of Privacy, Information Protection, and Data Security has also been developing an
IRS-wide Authentication Strategy. The Authentication Strategy promotes data protection and
enables ease of access to maintain public confidence and improve customer service. The goals
are to enhance an IRS-wide authentication internal control framework to address risk, deter
fraudulent access, and institutionalize a common set of principles for authenticating taxpayers
when contacting the IRS.

                                                                                            Page 7
                Target Dates Have Not Been Established to Eliminate or Reduce
                       Taxpayer Social Security Numbers From Outgoing
                                       Correspondence



There are no target dates for decisions on whether taxpayers’ Social Security Numbers can
be removed from notices and/or letters
Detailed Implementation and Compliance Management milestones have not been established.
The SSN ER Plan provided a strategic roadmap that showed Ongoing Compliance Management
beginning in Calendar Year 2011. However, milestones have not been updated since Release 3
of the SSN ER Plan or established for Phase 3 of the Plan, Implementation and Compliance
Management. In addition, while the IRS has prepared draft outcome measures for the SSN ER
Program related to forms and notices, it has not developed outcome measures related to its
systems.
The IRS was using a tracking tool for each of the targeted SSN ER Plan areas (e.g., System
Tracking Tool, a Correspondence Tracking Tool (tracks notices and letters), and a Forms
Tracking Tool). Each tool was populated with inventory data (notices, letters, systems, etc.).
After IRS offices responsible for the notices, letters, or systems decided if Social Security
Numbers were essential or not essential, the tracking tools were updated. There were no target
dates for any of the pending actions or decisions.
The IRS is creating an electronic SSN ER Program Compliance Management tool. The IRS
stated this tool will eventually replace the need for the SSN ER Program tracking tools and
spreadsheets. The new tool will allow for real-time updates and will assist the SSN ER Program
team in its daily tracking of the ongoing Social Security Number mitigation progress. It will also
allow the team to follow up on future SSN ER Plan compliance actions and provide progress
reporting. However, the tool only tracks actions; it does not set milestones or expectations.
Internal controls should be designed to assure that ongoing monitoring occurs as the SSN ER
Plan progresses. Monitoring should be performed continually and be ingrained in the operations.
It includes regular management and supervisory activities, comparisons, reconciliations, and
other actions people take in performing their duties. The key benefit to monitoring is that is
helps assure project performance is observed and measured regularly to identify variances from
the Plan. Without interim milestones, it is difficult to gauge the progress of the Plan.

Recommendations
The Deputy Commissioner for Operations Support should:
Recommendation 1: Maintain documentation to support major deliverables and key
meetings so that it is readily available for examination.
       Management’s Response: IRS management agreed with this recommendation. The
       IRS created a dedicated SSN ER shared folder to maintain documentation related to
       major SSN ER Program deliverables and key meetings and will ensure specific report
       and source materials are readily available for examination. The SSN ER Program team
       has also identified a team member as the Records Historian. The Records Historian will

                                                                                           Page 8
              Target Dates Have Not Been Established to Eliminate or Reduce
                     Taxpayer Social Security Numbers From Outgoing
                                     Correspondence



      establish record retention standards, as needed, on documents not currently covered in a
      records control schedule.
Recommendation 2: Validate data received from the business units and all accomplishments
to ensure all needed actions are complete.
      Management’s Response: IRS management agreed with this recommendation. The
      IRS will implement a data validation process for all SSN ER Plan accomplishments to
      ensure all required actions are completed.
      As part of this process, the IRS will leverage a current IRS application as an SSN ER
      Compliance Management Tool to track, monitor, and report ongoing SSN ER compliance
      progress throughout the enterprise. This Tool will house all SSN ER Program
      compliance data and establish an electronic case file for each system, notice, letter, and
      form that uses Social Security Numbers. This system is currently going through user
      acceptance testing and will be released by October 1, 2010.
Recommendation 3: Refine and update the milestones for the SSN ER Plan to ensure timely
progress of the strategy.
      Management’s Response: IRS management agreed with this recommendation. The
      IRS will strengthen Program milestones by refining and updating milestones quarterly to
      ensure timely progress of Program strategies.
      The IRS SSN ER 2-D Barcode Project is currently producing documents and artifacts for
      Project Milestones 1 and 2 as defined by the Enterprise Life Cycle. The 2-D Barcode
      Project, one of the solutions for the SSN ER Plan, will encode the Social Security
      Number within a two-dimensional barcode on IRS notices and will also provide the
      necessary tools to read and identify taxpayers when they respond to IRS notices. The
      Project is scheduled to complete Milestones 1 and 2 by October 1, 2010. Additional
      milestone dates will be established at that time.




                                                                                         Page 9
                Target Dates Have Not Been Established to Eliminate or Reduce
                       Taxpayer Social Security Numbers From Outgoing
                                       Correspondence



                                                                                   Appendix I

        Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether the IRS is efficiently eliminating
the unnecessary collection and use of taxpayer Social Security Numbers. To accomplish our
objective, we:
I.     Determined the expectations of OMB Memorandum 07-16 (M-07-16), “Safeguarding
       Against and Responding to the Breach of Personally Identifiable Information,” and if the
       IRS met the Department of the Treasury (Treasury) and OMB expectations.
       A. Reviewed the IRS’ current plans and reports relating to OMB M-07-16.
       B. Determined Treasury’s evaluation and opinion/conclusion of the IRS’ submitted
          plans, efforts, and actions to eliminate the unnecessary use of Social Security
          Numbers by interviewing officials in the Treasury Office of Privacy and Treasury
          Records.
       C. Determined OMB’s evaluation and opinion/conclusion of the Treasury/IRS submitted
          plans, efforts, and actions to eliminate the unnecessary use of Social Security
          Numbers by interviewing officials in the OMB Office of Information and Regulatory
          Affairs.
II.    Determined the accuracy of the 35 accomplishments cited in the IRS SSN ER Plan,
       Version 3.0, dated February 17, 2009.
       A. Met with IRS officials to discuss the process followed for validating the
          February 17, 2009, SSN ER Plan.
       B. Selected a judgmental sample of 9 accomplishments from the 35 accomplishment
          statements and identified the source information supporting the statements. We
          selected a judgmental sample because of the small population size (35) and to ensure
          we sampled accomplishments related to systems, notices, and forms.
       C. Reviewed the source documents and supporting documentation provided by the IRS
          to determine the accuracy of the Plan statements.
III.   Determined if the universal population of IRS systems, notices, and forms appeared
       complete.
IV.    Determined the process used to prioritize the Social Security Number inventory to
       immediately eliminate, replace, or mask the Social Security Number or to include in the


                                                                                          Page 10
                Target Dates Have Not Been Established to Eliminate or Reduce
                       Taxpayer Social Security Numbers From Outgoing
                                       Correspondence



       enterprise-wide plan to seek an alternative method to safeguard the Social Security
       Numbers.
V.     Identified delivery milestones and actions to be taken.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: Office of Privacy policies, procedures, and
practices for implementing the SSN ER Plan. We evaluated these controls by interviewing
management and employees and reviewing documentation to support the accomplishments and
activities as outlined in the SSN ER Plan.




                                                                                           Page 11
               Target Dates Have Not Been Established to Eliminate or Reduce
                      Taxpayer Social Security Numbers From Outgoing
                                      Correspondence



                                                                             Appendix II

                 Major Contributors to This Report

Michael E. McKenney, Assistant Inspector General for Audit (Returns Processing and Account
Services)
Augusta R. Cook, Director
Paula W. Johnson, Audit Manager
Lynn Faulkner, Lead Auditor
Geraldine Vaughn, Auditor




                                                                                    Page 12
              Target Dates Have Not Been Established to Eliminate or Reduce
                     Taxpayer Social Security Numbers From Outgoing
                                     Correspondence



                                                                         Appendix III

                        Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Chief Technology Officer OS:CTO
Commissioner, Small Business/Self-Employed Division SE:S
Commissioner, Wage and Investment Division SE:W
Director, Privacy, Information Protection, and Data Security OS:P
Associate Chief Information Officer, Enterprise Services OS:CTO:ES
Associate Chief Information Officer, Strategy and Planning OS:CTO:SP
Director, Campus Compliance Services, Small Business/Self-Employed Division SE:S:CCS
Director, Collection, Small Business/Self-Employed Division SE:S:C
Director, Customer Account Services, Wage and Investment Division SE:W:CAS
Director, Customer Assistance, Relationships and Education, Wage and Investment Division
SE:W:CAR
Director, Examination, Small Business/Self-Employed Division SE:S:E
Director, Privacy and Information Protection OS:P:PIP
Director, Strategy and Finance, Wage and Investment Division SE:W:S
Deputy Associate Chief Information Officer, Systems Integration OS:CTO:ES:SI
Director, Accounts Management, Wage and Investment Division SE:W:CAS:AM
Director, Campus Filing and Payment Compliance, Small Business/Self-Employed Division
SE:S:CCS: FPC
Director, Campus Reporting Compliance, Small Business/Self-Employed Division
SE:S:CCS:CRC
Director, Media and Publications, Wage and Investment Division SE:W:CAR:MP
Director, Office of Privacy OS:P:PIP:P
Director, Portfolio Planning and Estimation OS:CTO:SP:PPE
Director, Strategy and Capital Planning OS:CTO:SP:SCP
Chief, Program Evaluation and Improvement, Wage and Investment Division SE:W:S:PRA:PEI
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Chief Technology Officer OS:CTO

                                                                                 Page 13
       Target Dates Have Not Been Established to Eliminate or Reduce
              Taxpayer Social Security Numbers From Outgoing
                              Correspondence



Commissioner, Small Business/Self-Employed Division SE:S
Director, Privacy, Information Protection, and Data Security OS:P
Senior Operations Advisor, Wage and Investment Division SE:W:S
Chief, GAO/TIGTA/Legislative Implementation Branch, Small Business/Self-Employed
Division SE:S:CLD:PSP:GTL
Chief, Program Evaluation and Improvement, Wage and Investment Division
SE:W:S:PRA:PEI




                                                                         Page 14
   Target Dates Have Not Been Established to Eliminate or Reduce
          Taxpayer Social Security Numbers From Outgoing
                          Correspondence



                                                   Appendix IV

Management’s Response to the Draft Report




                                                          Page 15
Target Dates Have Not Been Established to Eliminate or Reduce
       Taxpayer Social Security Numbers From Outgoing
                       Correspondence




                                                       Page 16
Target Dates Have Not Been Established to Eliminate or Reduce
       Taxpayer Social Security Numbers From Outgoing
                       Correspondence




                                                       Page 17
Target Dates Have Not Been Established to Eliminate or Reduce
       Taxpayer Social Security Numbers From Outgoing
                       Correspondence




                                                       Page 18
Target Dates Have Not Been Established to Eliminate or Reduce
       Taxpayer Social Security Numbers From Outgoing
                       Correspondence




                                                       Page 19
